Nos. 19-840, 19-841

In the Supreme Court of the United States
STATE OF CALIFORNIA, ET. AL.,

Petitioners,

AND

UNITED STATES HOUSE OF REPRESENTATIVES,

Petitioner,

V.

STATE OF TEXAS, ET. AL.,

Respondents,

AND

UNITED STATES OF AMERICA, ET. AL.,

Respondents.

ON PETITIONS FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
INDIVIDUAL RESPONDENTS’ OPPOSITION TO CALIFORNIA ET. AL’S AND UNITED
STATES HOUSE OF REPRESENTATIVES’ MOTION TO EXPEDITE CONSIDERATION OF
THE PETITION FOR A WRIT OF CERTIORARI, TO EXPEDITE MERITS BRIEFING AND
ORAL ARGUMENT IN THE EVENT THAT THE COURT GRANTS THE PETITION, AND TO
EXPEDITE CONSIDERATION OF THIS MOTION
ROBERT HENNEKE
TEXAS PUBLIC POLICY FOUNDATION
901 Congress Avenue
Austin, TX 78701
Telephone: (512) 472-2700
rhenneke@texaspolicy.com

EXECUTIVE SUMMARY
Individual Respondents Neill Hurley and John Nantz respectfully request that
this Court deny Petitioners California, et. al.’s Motion to Expedite Consideration of
the Petition for a Writ of Certiorari and to Expedite Consideration of This Motion and
the United States House of Representatives’ Motion to Expedite Consideration of the
Petition for a Writ of Certiorari, to Expedite Merits Briefing and Oral Argument in
the Event that the Court Grants the Petition, and to Expedite Consideration of This
Motion and allow the Petitions for a Writ of Certiorari to the United States Court of
Appeals for the Fifth Circuit, both filed on January 3, 2020. This matter should be
briefed and proceed in accordance with the normal schedule provided by the Rules of
the Supreme Court of the United States.
Petitioners have failed to demonstrate that any exigent circumstances exist
that warrant expediting review of their petitions for a writ of certiorari. They have
also failed to show any compelling reasons why the briefing schedule and oral
argument schedule should be shortened, in the event that one or both petitions for a
writ of certiorari are granted. And, Petitioners fail to take into consideration the
timing for likely conditional cross-petitioners.
The district court entered a stay of its order granting partial final summary
judgment, and proceedings remain stayed throughout the course of the appellate
process in this case. This is the type of case that is typically considered on an ordinary
briefing schedule; this Court has previously heard at least two challenges to the
constitutionality of the same law in the ordinary course. Political considerations,

2

such as Petitioners’ desires to deflect attention away from the current efforts to
replace the Affordable Care Act with single-payer Medicare for All, are not exigent
circumstances that warrant expedition of this case, as this Court is not a political
branch of government.
This Court would be best-served by the most thorough briefing - not by the
fastest briefing. And, this Court should decline Petitioners’ invitation to politicize
this case, particularly in an election year. Therefore, it should exercise deliberate
consideration of the important issues presented in this appeal under the normal
schedule set forth in its procedural rules.
ARGUMENT
Petitioners have failed to demonstrate that accelerated review of the motion to
expedite or petitions for a writ of certiorari are warranted. Nor have they shown that
an accelerated merits-stage briefing and oral argument schedule would be proper.
Petitioners have presented no evidence that any exigent or compelling circumstances
exist that would warrant the interruption of this Court’s normal operations.
Additionally, requiring two briefs in opposition to a writ of certiorari to be prepared
on this expedited schedule risks sacrificing the thorough and effective presentation
of the issues that this Court deserves.

Accordingly, this Court should deny

Petitioners’ motions and, pursuant to its Rules, allow this case to proceed in the
ordinary course.
I.

No exigent circumstances exist that warrant expedition of this
case.

3

This Court’s procedural rules provide Respondents thirty days from the date
the case is placed on the Court’s docket to respond to a petition for a writ of certiorari.
Sup. Ct. R. 15(3). Petitioners have requested that the Court reduce that time to an
insufficient eighteen days (to respond to two petitions for a writ of certiorari). If this
Court grants their motions, Respondents will have less than three weeks to read and
review both Petitions, analyze the authorities cited therein, draft two briefs in
opposition, and ensure they are printed and filed. Respondents need at least thirty
days to prepare thorough drafts of their briefs in opposition to the petitions. The
hasty schedule suggested by Petitioners may potentially result in overlapping
briefing and arguments. Shortening the certiorari and merits-stage briefing and
argument schedules would hinder Respondents’ ability to exclude duplicative
arguments, coordinate with other counsel, and deliver detailed, succinct briefs and
arguments.
Orders to expedite cases in this Court are infrequently entered and are
typically limited to exceptional circumstances that are not present in this case. For
example, this Court has found a need for expedited consideration in cases implicating
national security concerns. See, e.g., Ex parte Quirin, 317 U.S. 1, 19 (Granting
expedited consideration of a case determining the constitutionality of trying
petitioners accused of war crimes in a military tribunal “in view of the public
importance of the questions raised by [the] petitions and of the duty which rests on
the courts, in time of war as well as in time of peace, to preserve unimpaired the
constitutional safeguards of civil liberty, and because in [the Court’s] opinion the

4

public interest required [it to] consider and decide those questions without any
avoidable delay.”). See also New York Times Co. v. United States, 403 U.S. 713, (1971)
(Granting expedited consideration because case presented issues concerning the
publication of classified materials related to the Vietnam War); Youngstown Sheet &
Tube Co. v. Sawyer, 343 U.S. 579 (1952) (Granting expedited consideration because
case presented issues about whether the seizure of most of the country’s steel mills
was a proper exercise of the President’s military power).
Petitioners’ claimed reason for seeking an expedited schedule is that the Fifth
Circuit’s remand to the district court makes the constitutionality of the Patient
Protection and Affordable Care Act (the “Act”) uncertain, and that this uncertainty
makes decisions pertaining to health insurance difficult. CA Mot. to Expedite 5,6.
This is an inadequate reason to expedite this case and deny Respondents sufficient
briefing time. In fact, this Court has previously considered at least two challenges to
the constitutionality of the same law without expediting the proceedings. See Nat'l
Fed'n of Indep. Bus. v. Sebelius, 567 U.S. 519 (2012); see also King v. Burwell, 135
S.Ct. 2480 (2015).
The district court explicitly stayed its order granting partial final summary
judgment, which declared the entirety of the Act to be unconstitutional, in December
of 2018. Health insurance markets have continued to function since that time. The
district court’s stay will remain in place throughout the course of appellate
proceedings, which maintains the status quo until final appellate resolution of this

5

case. There are thus no special circumstances that warrant expedited consideration
of this case.
Finally, if this Court elects to grant Petitioners’ motions, prudence counsels
that the petitions for a writ of certiorari and any conditional cross-petitions filed
pursuant to Supreme Court Rule 13(4) be considered together. In light of the partial
remand by the Fifth Circuit, such cross-petitions may be required in order to preserve
all issues should certiorari be granted. Given that any conditional cross-petitions
would be due March 17, see Sup. Ct. Rule 13, granting Petitioners’ expedited
schedules would result in all subsequent filing deadlines associated with the petitions
differing from those related to any conditional cross-petitions. And accelerating the
cross-petitions’ deadlines would unduly prejudice Respondents. The only other option
is the best option—for this Court to observe its ordinary schedule pursuant to its
rules.
CONCLUSION
For the foregoing reasons, this Court should deny Petitioners’ motions to
expedite, and allow certiorari briefing and any merits briefing and oral argument
scheduling to proceed in the ordinary course.
Respectfully submitted,
/s/ Robert Henneke
ROBERT HENNEKE
TEXAS PUBLIC POLICY FOUNDATION
901 Congress Avenue
Austin, Texas 78701
Telephone: (512) 472-2700
rhenneke@texaspolicy.com
Counsel of Record for Individual Respondents

6

